      INVESTOR AND SMALL
    BUSINESS TOWN MEETINGS

                     EXECUTIVE SUMMARY
The Securities and Exchange Commission’s Office of Inspector General conducted a
limited audit of town meetings held during June 1999 in Seattle, Washington;
Portland, Oregon; and Kansas City, Missouri. Generally, we found that the town
meetings we reviewed complied with the guidelines, funds spent were reasonable
and allowable, and individual firms or investment products were not mentioned
inappropriately. As described below, at the Portland investor meeting, one sponsor
distributed business cards, a mutual fund company (unrelated to the meeting)
opened a booth nearby, and certain educational materials were not pre-approved by
the Office of Investor Education and Assistance (OIEA), as required. OIEA and the
Division of Corporation Finance (CF) have concurred with our recommendations
(See Appendix A).



                   SCOPE AND OBJECTIVES
The Securities and Exchange Commission’s Office of Inspector General conducted a
limited audit of town meetings held during June 1999 in Seattle, Washington;
Portland, Oregon; and Kansas City, Missouri. The audit was performed in
accordance with generally accepted government auditing standards from June to
September 1999. During our review, we interviewed Commission staff, reviewed
supporting documentation, and attended the Portland and Kansas City town
meetings.
Our purpose was to provide the Commission with negative assurance 1 concerning
compliance with the Commission’s town meeting guidelines. Specifically, our
objectives were to determine whether the funds spent by the Commission and the
sponsors 2 in organizing the town meetings were reasonable and allowable, and
whether individual firms or investment products were inappropriately mentioned
(except as part of a speaker’s biography) in any of the following:
1   Negative assurance means that no material instances of non-compliance came to
    our attention during the limited audit.
2   As used in this report, the term “sponsor” includes sponsors, co-sponsors, and
    steering committee members. Sponsors may pay a pro rata portion of town
    meeting expenses. However, the Commission will not accept contributions from
    Self Regulatory Organizations or individual firms.
                                                                                Page 2



       •   Speeches by the Chairman or others (e.g., state securities regulators),
       •   Invitations to the public,
       •   Newspaper articles or advertisements,
       •   Logos on name tags worn by Commission staff, sponsors, or other
           individuals,
       •   Educational materials distributed at the Town meeting,
       •   Flyers, banners or signs at the Town meeting, and
       •   Promotional items given to the attendees (e.g., pens, coasters).


                            BACKGROUND
The Commission conducts town meetings for both investors and for small
businesses. Since 1994, 32 investor and 13 small business town meetings have been
held. The Seattle and Portland town meetings mentioned above were for investors,
while the Kansas City town meeting was for small businesses.
OIEA organizes investor town meetings. The purpose of the meetings is to teach
investors how to safely and confidently participate in the securities markets.
Another purpose is to identify investor concerns and problems.
At the start of these meetings, the Chairman typically provides investors with some
tips on being a smart investor, followed by a question and answer session. Then,
investors choose which of several concurrent seminars to attend. The seminars are
presented by the meeting sponsors and cover a variety of investment topics (e.g.,
Successful Investing, Understanding Bonds, etc.).
CF organizes small business town meetings. They discuss the requirements
involved when a small business raises capital through the sale of securities. The
meetings also let the Commission hear about the concerns and problems facing
small businesses. The meeting consists of a panel discussion with a senior
Commission representative (e.g., the Chairman, a Commissioner, or the Director of
CF), US Small Business Administration representative, state regulators, attorneys
in private practice, and others.
OIEA and CF seek sponsors to pay for and promote the town meeting. OIEA and
the sponsors will provide the educational materials for the investor town meetings.
CF will provide the educational materials for the small business town meetings.
OIEA sponsors may include the local media, investment groups (e.g., the American
Savings Education Council, the Investment Company Institute, etc.), and
government agencies. CF sponsors may include the local Chamber of Commerce and
government entities.
Sponsor contributions are voluntary and not fixed in amount. A financial
contribution is not a requirement for participating in a town meeting as a sponsor.




INVESTOR AND SMALL BUSINESS TOWN MEETINGS (AUDIT 303)                          NOVEMBER 18, 1999
                                                                                  Page 3



Total costs for the three meetings were approximately $14,500 (Seattle $5,400,
Portland $7,600, and Kansas City $1,500). The Commission contributed $1,200. 3



                             AUDIT RESULTS
During the limited audit described above, no material instances of non-compliance
with the Commission’s town meeting guidelines came to our attention. However,
some of our observations form the basis for recommendations to improve future
meetings.


IMPROPER SOLICITATION

Business Cards Distributed
    At the Portland investor town meeting, we observed members of a sponsoring
    organization distributing personal business cards. The members verbally told us
    that they could be trusted with investment funds because they attended the
    meeting and mentioned that its booth was located next to federal agencies (e.g., the
    Federal Trade Commission, U.S. Treasury) as evidence of their trust-worthiness.
    When we informed OIEA staff, they immediately spoke with a member of the
    sponsoring organization, who put away the business cards. OIEA indicated that a
    similar problem occurred at the Seattle investor town meeting.4 According to OIEA,
    they detected the problem at the Seattle investor town meeting, early on when a
    staff member walked around to check out the exhibits.
    The Commission’s town meeting guidelines indicate that “sponsors, co-sponsors and
    participants may not endorse, nor appear to endorse, any financial services
    company, professional, activity or product at a town meeting...” Distribution of
    business cards and pamphlets, and verbal endorsement of a company appear to
    violate the guidelines.
    OIEA indicated an oversight in the training of a new member of its staff could have
    contributed to the Portland incident. OIEA sends a letter describing acceptable
    practices at town meetings to the national headquarters of sponsors, who then
    communicate with their local chapter. Inadvertently, the letter sent for these


3   These costs do not include Commission staff hours and expenses (travel,
    photocopying, and postage) or free publicity provided by local media. One sponsor,
    for the Kansas City meeting, provided the meeting area (including the audio/visual
    equipment) and contributed for a reception. These costs are not included in the
    $14,500.
4   According to OIEA, a sponsor distributed personal business cards and pamphlets
    at the Seattle investor meeting. The pamphlets rated the environmental
    friendliness of certain public companies and encouraged investors to review a
    company’s environmental record before investing. OIEA had the sponsor stop
    distributing these materials.


INVESTOR AND SMALL BUSINESS TOWN MEETINGS (AUDIT 303)                            NOVEMBER 18, 1999
                                                                                  Page 4



    meetings omitted the endorsement prohibition. However, this organization had
    previously participated in town meetings and should have known of the prohibition.

Uninvited Mutual Fund Company
    At the Portland investor town meeting, the Oregon chapter of the American
    Institute of Certified Public Accountants (AICPA) was simultaneously holding a
    meeting in the convention center. A mutual fund company opened a booth in the
    general vicinity of the town meeting and the Oregon AICPA meeting, along with
    other exhibitors’ booths. The mutual fund company informed us that it was not
    part of the investor meeting nor the Oregon AICPA meeting. OIEA staff stated
    that they were unaware that the mutual fund company would open the booth.
    While the mutual fund company did nothing wrong, investors could have been
    misled by its proximity to the town meeting.

          RECOMMENDATION A
          OIEA and CF staff should discuss the prohibitions with new sponsors and the
          local chapters of the sponsors, and continue to periodically walk around the
          town meeting exhibit booths to ensure that sponsors comply with
          Commission guidelines and to monitor nearby activities (like the uninvited
          mutual fund company discussed above).

          RECOMMENDATION B
          OIEA and CF should, at venues where the town meeting is not the only
          event, ask that the Chairman’s (or other Commission representative’s) speech
          contain a general disclaimer that the Commission is not endorsing particular
          firms, products, services, professionals, etc. CF should also insert a similar
          disclaimer in their town meeting invitations.5


EDUCATIONAL MATERIALS AND SERVICES
    One sponsor at the Portland investor town meeting provided investors with a
    catalog of educational materials for sale at cost. The educational materials were
    designed for classroom use by teachers. Also, one sponsor during a seminar
    distributed a newspaper article with details about several credit counseling (debt
    management) services which were unrelated to the sponsor. Although the services
    are nonprofit, there are charges for their services. We did not observe either of
    these materials or services being sold at the town meeting.
    OIEA staff stated that they had previously approved the distribution of the
    newspaper article at other Commission education events, but had not seen the
    catalog prior to its distribution at the town meeting. According to the Commission’s
    guidelines, “…No advertising or sale of financial products or services will be
    permitted. Exceptions may be made, in the sole discretion of the SEC, for the sale

5   OIEA has a disclaimer in their invitations.



INVESTOR AND SMALL BUSINESS TOWN MEETINGS (AUDIT 303)                           NOVEMBER 18, 1999
                                                                               Page 5



of educational materials, if such materials are sold at cost and are pre-approved by
us.” According OIEA, they would have approved the catalog. Nevertheless, OIEA
is revising its letter to sponsors to more clearly indicate that prior approval is
required to sell, or advertise the sale of, educational materials.




INVESTOR AND SMALL BUSINESS TOWN MEETINGS (AUDIT 303)                        NOVEMBER 18, 1999
